Report No. D-2008-002        October 9, 2007




           DoD Salary Offset Program
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DIMHRS                Defense Integrated Military Human Resources System
DJMS                  Defense Joint Military Pay System
DRAS                  Defense Retiree and Annuitant Pay System
                              INSPECTOR GENERAL
 

                             DEPARTMENT OF DEFENSE
 

                              400 ARMY NAVY DRIVE
 

                         ARLINGTON , VIRGINIA 22202-4704
 




                                                                           October 9, 2007

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on DoD Salary Offset Program (Report No. D-2008-002)


      Weare providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Director, Corporate Reporting Standards and Compliance comments were partially
responsive. We request additional comments on Recommendations AI., A2., and A3 .,
by November 8, 2007 . See the Finding section for the deleted and renumbered
recommendations.

        Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to Audclev@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       Questions should be directed to Mr. Kenneth B. VanHove at (216) 706-0074,
extension 245 or Mr. John C. Petrucci at (216) 706-0074, extension 266. See
Appendix C for the report distribution. The team members are listed inside the back
cover.

                                By direction of the Deputy Inspector General for Auditing:




                                         p;f(Granetto, CPA
 

                                Assistant Inspector General and Director
 

                                  Defense Financial Auditing Service
 

               Department of Defense Office of Inspector General
Report No. D-2008-002                                                   October 9, 2007
  (Project No. D2007-D000FC-0059.000)

                           DoD Salary Offset Program

                                Executive Summary

Who Should Read This Report and Why? Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer personnel and the Defense Finance and
Accounting Service representatives responsible for processing salary offsets should read
this report. It discusses processing salary offsets from current DoD civilian employees’
and active and retired military members’ earnings.

Background. The “Debt Collection Improvement Act of 1996” requires the collection of
delinquent debts owed to the Federal Government. To maximize collection of delinquent
debts, DoD may offset the earnings of current DoD civilian employees and active and
retired military members. Salary offsets are collected in one or more officially
established pay intervals. The Defense Finance and Accounting Service Salary Offset
Office, located in Cleveland, Ohio, handles salary offsets from non-DoD Federal
agencies. The Defense Finance and Accounting Service Salary Offset Office is also
responsible for settling Bank of America individually billed Government travel card debt
obligations incurred by DoD personnel.

During FY 2006, the Defense Finance and Accounting Service Salary Offset Office
reported collections of $9.8 million in delinquent debts. The collection process begins
when the Defense Finance and Accounting Service Salary Offset Office receives
validated debts from the Department of the Treasury or Bank of America. The Defense
Finance and Accounting Service Salary Offset Office then transfers the debts to various
Defense pay systems, including the Defense Civilian Pay System, the Defense Joint
Military Pay System-Active and Reserve Components, the Defense Retiree and
Annuitant Pay System, and the Marine Corps Total Force System, for collection. The
Defense Finance and Accounting Service attempts to collect offsets in one lump sum, but
under certain circumstances debts can be collected in installment payments. These
installments may not exceed 15 percent of disposable pay unless the payee has agreed to
a greater amount. There is no limit on the amount collected when an employee or
military member has separated from DoD.

Results. The Defense Finance and Accounting Service properly offset earnings from
current civilian DoD employees. However, during FY 2006, the Defense Joint Military
Pay System used inaccurate disposable pay to calculate salary offsets for current and
retired military members. Also, the Defense Joint Military Pay System-Active
Component and the Defense Retiree and Annuitant Pay System did not use 15 percent of
disposable pay to calculate salary offsets. The Defense Joint Military Pay System-
Reserve Component also included unsupported salary offsets for some military reservists.
As a result, the Defense Finance and Accounting Service improperly offset earnings for
current and retired military members to satisfy debt obligations. Also, Defense Finance
and Accounting Service may have improperly offset the earnings of additional current
military members. The Defense Finance and Accounting Service should modify its
payment systems to ensure that disposable pay is in compliance with the DoD Financial
Management Regulation and use 15 percent of disposable pay to calculate salary offsets.
Additionally, it should ensure that payment documentation is retained and readily
accessible in accordance with DoD Financial Management Regulation 7000.14-R,
volume 5, chapter 21, section 210101, “Disbursing Office Records,” March 2003.

After we communicated our concerns to Defense Finance and Accounting Service
management, they initiated a review to identify potential corrective actions for the issues
described within this report. Based on management comments, Defense Finance and
Accounting Service determined that the required systems changes were too time-
consuming and costly to ensure compliance with Federal regulations and the DoD
Financial Management Regulation.

Defense Finance and Accounting Service internal controls were not adequate, and there
is a material internal control weakness in its processing of salary offsets for current and
retired military members. See the finding for further details on the material internal
control weaknesses.

Management Comments and Audit Response. The Director, Corporate Reporting
Standards and Compliance concurred with two recommendations, nonconcurred with two
recommendations, and partially concurred with one recommendation. As a result of
management comments, we deleted one draft recommendation and renumbered one draft
recommendation. The Director, Corporate Reporting Standards and Compliance
management comments were partially responsive to three recommendations and
responsive to one recommendation. We request that the Director, Defense Finance and
Accounting Service provide comments on the final report by November 8, 2007. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the text of the comments.




                                             ii
Table of Contents 


Executive Summary                               i


Background                                      1


Objective                                       1


Review of Internal Controls                     2


Finding 

      Accuracy of Salary Offsets                3


Appendixes
      A. Scope and Methodology                 10 

      B. Statistical Sample                    12 

      C. Report Distribution                   13 


Management Comments
      Defense Finance and Accounting Service   15 

Background
           The “Debt Collection Improvement Act of 1996” requires the collection of
           delinquent debts owed to the Federal Government. To maximize collection of
           delinquent debts, DoD may offset the earnings of current DoD civilian employees
           and current and retired military members. Salary offsets are collected in one or
           more officially established pay intervals from the payee.

           DFAS Salary Offset Office. The Defense Finance and Accounting Service
           (DFAS) Salary Offset Office, located in Cleveland, Ohio, handles salary offsets
           from non-DoD Federal agencies. Specifically, the Department of the Treasury
           sends electronic requests to the DFAS Salary Offset Office to establish salary
           offsets for delinquent United States guaranteed loans, overpayments, penalties,
           fines and all other amounts due to the Federal Government. Also, the DFAS
           Salary Offset Office is responsible for settling Bank of America individually
           billed Government travel card debt obligations incurred by DoD personnel.
           During FY 2006, the DFAS Salary Offset Office reported collections of $9.8
           million in delinquent debts.

           Salary Offset Processing. The Department of the Treasury or Bank of America
           transmits valid debts to the DFAS Salary Offset Office for processing. The
           DFAS Salary Offset Office receives the validated debts through the Salary Offset
           Reporting System. The Salary Offset Reporting System consists of three
           databases 1 and manages debt balances during the salary offset process. The
           Salary Offset Reporting System then transfers these debts to the Defense pay
           systems, including the Defense Civilian Pay System, the Defense Joint Military
           Pay System (DJMS)-Active and Reserve Components, the Defense Retiree and
           Annuitant Pay System (DRAS), and the Marine Corps Total Force System for
           collection. DFAS attempts to collect the offsets in one lump sum, but debts can
           be collected in installment payments under certain circumstances. These
           installments may not exceed 15 percent of disposable pay, unless the payee has
           agreed to a greater amount. There is no limit on the amount collected when an
           employee or military member has separated from DoD.


Objective
           Our audit objective was to determine whether DFAS accurately and efficiently
           offset current DoD civilian employees’ and active and retired military members’
           earnings to satisfy debt obligations. See Appendix A for a discussion of the scope
           and methodology.




1
    The Salary Offset Reporting System includes the Salary Offset Reporting System database, the Treasury
    Offset Program database, and the Bank of America database. The Salary Offset Reporting System
    database and the Treasury Offset Program database contain Federal debts. The Bank of America
    database contains Government travel card debts.



                                                     1

Review of Internal Controls 

     We identified material internal control weaknesses for DFAS as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
     January 4, 2006. Specifically, DFAS did not ensure that DJMS and DRAS
     properly offset the earnings of current and retired military members’ earnings.
     Implementing the recommendations in this report will strengthen the DoD salary
     offset process and prevent improper offset amounts. See the finding for further
     details on the material internal control weaknesses. A copy of the report will be
     provided to the senior official responsible for management controls in DFAS.




                                         2

                    Accuracy of Salary Offsets
                    DFAS properly offset earnings from current civilian DoD employees.
                    However, during FY 2006:

                         •	 DJMS used inaccurate disposable pay to calculate salary offsets;

                         •	 DJMS-Active Component and DRAS did not use 15 percent of
                            disposable pay to calculate salary offsets; and

                         •	 DJMS-Reserve Component included unsupported salary offsets for
                            some military reservists.

                    DFAS improperly programmed DJMS to calculate disposable pay.
                    DJMS-Active Component and DRAS also did not have the capability to
                    offset members’ earnings at 15 percent of disposable pay. Furthermore,
                    DJMS-Reserve Component could not retain adequate documentation to
                    support salary offsets. As a result, DFAS improperly offset earnings for
                    current and retired military members to satisfy debt obligations. Also,
                    DFAS may have improperly offset the earnings for additional current
                    military members.


DFAS Pay Systems Background
           DJMS. The DFAS Military Pay Offices use DJMS to process monthly payroll
           services for Army, Navy, and Air Force military members. Active military
           member pay is processed by DJMS-Active Component, and Reserve military
           member pay is processed by DJMS-Reserve Component.

           DRAS. The DFAS Retired and Annuitant Pay Office, located at DFAS
           Cleveland, oversees Lockheed Martin, which uses DRAS to process monthly
           payroll services for military retirees and their annuitants. Payroll information
           within DRAS interfaces with an allotment system that retains allotment 2
           information, to include salary offsets.


Salary Offset Criteria
           Public Law. Public Law 105-264, “The Travel and Transportation Reform Act
           of 1998,” October 19, 1998, states that Federal agencies may collect, on behalf of
           Bank of America, any undisputed delinquent Government travel card debts. The
           amount deducted from an employee’s pay may not exceed 15 percent of the

2
    Allotments consist of discretionary and non-discretionary allotments. Some examples of discretionary
    allotments include life insurance premiums; voluntary payments to a family member, former spouse or
    relative; and deposits to a financial institution. Some examples of non-discretionary allotments include
    payment of delinquent taxes and repayment of Army Emergency Relief loans.



                                                       3

           employee’s disposable pay, unless the employee has agreed to a greater
           percentage by written consent.

           United States Code. Section 5514, title 5, United States Code, requires agencies
           to withhold money from an employee if the employee is indebted to the United
           States Government. The amount deducted may not exceed 15 percent of the
           employee’s disposable pay, unless the employee has agreed to a greater
           percentage by written consent. Also, there is no limit on the amount collected
           when an employee has separated from service.

           DoD Financial Management Regulations. DoD Financial Management
           Regulation 7000.14-R, volume 7A, chapter 50, section 500103, “Stoppages and
           Collections Other Than Court Martial Forfeitures,” September 2006, defines
           disposable pay for current military members. For Active duty members,
           disposable pay includes gross pay less any deductions made for the Federal
           Insurance Contributions Act, Armed Forces Retirement Home, Federal Income
           Tax Withholdings, State Income Tax Withholdings, and Servicemembers’ Group
           Life Insurance (including Family Servicemembers’ Group Life Insurance and
           Traumatic Servicemembers’ Group Life Insurance). Disposable pay is defined
           the same way for reservists, except that there is no deduction for the Armed
           Forces Retirement Home.

           DoD Financial Management Regulation 7000.14-R, volume 7B, chapter 28,
           section 280209, “Collection of Debts,” April 2005, defines disposable pay for
           retired military members. Specifically, disposable pay includes gross pay less
           any deductions due to civilian employment, Reserve duty, Veterans Affairs
           compensation, Retired Serviceman’s Family Protection Plan premiums, and
           Survivor Benefit Plan premiums.


Accuracy of Salary Offsets
           Accuracy of Disposable Pay. DFAS properly offset earnings from current
           civilian DoD employees. However, during FY 2006, DJMS used inaccurate
           disposable pay to calculate salary offsets. Specifically, military members’
           disposable pay did not include some special and incentive pays and did not
           include authorized Armed Forces Retirement Home and Medicare deductions.
           Also, military reservist disposable pay included entitlements 3 and deductions not
           authorized by the DoD Financial Management Regulation.

           Salary Offset Limitations. DJMS-Active Component and DRAS did not use 15
           percent of disposable pay to calculate salary offsets, even though DFAS Salary
           Offset Office transmitted the 15 percent disposable pay limitation to the pay
           systems. DJMS-Active Component and DRAS deducted a fixed salary offset
           amount instead of 15 percent. For example, one military member had a fixed
           salary offset of $137.85 deducted from each monthly payment during FY 2006.


3
    Entitlements are all the components of an employee’s gross pay. This includes basic pay, allowances, and
    special pay.



                                                      4

     However, in May 2006 the member should have had a salary offset of $1,830.71,
     due to receiving a Selective Reenlistment Bonus of over $14,000.

     Salary Offset Documentation. DJMS-Reserve Component included
     unsupported salary offsets for some military reservists. Specifically, DJMS-
     Reserve Component included unsupported salary offsets deducted during the first
     quarter of FY 2006. The DFAS Military Pay Office could not provide adequate
     documentation supporting these salary offsets.


Adequacy of Salary Offset Processing
     DJMS-Active Component Disposable Pay Programming. DFAS improperly
     programmed DJMS-Active Component disposable pay by excluding some special
     and incentive pays and other authorized deductions. A DFAS Military Pay Office
     representative stated that this happened because DJMS-Active Component uses
     the previous pay period for calculating disposable pay. Also, DJMS-Active
     Component did not include Armed Forces Retirement Home and Medicare as
     authorized deductions. According to the DoD Financial Management Regulation
     7000.14-R, volume 7A, chapter 50, section 500103, military members’ disposable
     pay should include all authorized special and incentive pays, as well as authorized
     Armed Forces Retirement Home and Medicare deductions. DFAS should ensure
     that DJMS-Active Component disposable pay is in compliance with the DoD
     Financial Management Regulation.

     DJMS-Reserve Component Disposable Pay Programming. DFAS improperly
     programmed DJMS-Reserve Component disposable pay to include all available
     entitlements and deductions. A DFAS Military Pay Office representative stated
     that Basic Allowances for Subsistence and Housing are not included within
     disposable pay. However, several military reservists’ disposable pay included
     these entitlements. Also, the DoD Financial Management Regulation 7000.14-R,
     volume 7A, chapter 50, section 500103, does not include additional debts as
     authorized deductions for calculating disposable pay. However, a military
     reservist’s pay improperly included additional debts as an authorized deduction.
     DFAS should ensure that DJMS-Reserve Component disposable pay complies
     with the DoD Financial Management Regulation.

     System Capabilities for Salary Offset Limitations. DJMS-Active Component
     and DRAS did not have the capability to calculate the salary offset at 15 percent
     of disposable pay each pay period. DFAS representatives stated that both DJMS-
     Active Component and DRAS could not calculate a salary offset at 15 percent of
     disposable pay. DFAS should calculate salary offsets using 15 percent of
     disposable pay.

     Maintaining Salary Offset Documentation. DJMS-Reserve Component did not
     retain adequate documentation to support salary offsets. DoD Financial
     Management Regulation 7000.14-R, volume 5, chapter 21, section 210101,
     “Disbursing Office Records,” March 2003, requires original disbursing office
     records and associated papers to be retained and readily accessible for 6 years and
     3 months. Specifically, the DFAS Military Pay Office could not provide adequate


                                          5

     salary offset documentation for the first quarter of FY 2006. DFAS should ensure
     payment documentation is retained and readily accessible as required by the DoD
     Financial Management Regulation.


Salary Offset Deductions
     DFAS used inaccurate disposable pay to offset earnings for current and retired
     military members and could not support some salary offset amounts for reservists.
     As a result, DFAS improperly offset earnings for current and retired military
     members to satisfy debt obligations. In addition, DFAS may have improperly
     offset the earnings from additional current military members during FY 2006
     because DFAS did not properly maintain supporting documentation. By
     maximizing the collection of debts through salary offset, DFAS would increase
     the likelihood of fully recovering Federal debts. These recovered debts allow for
     additional funding to Federal agency operations.


Management Actions
     After we communicated our concerns to DFAS management, they initiated a
     review to determine potential corrective actions for the issues described in this
     report. Based on management comments, DFAS determined that the required
     systems changes were too time-consuming and costly to ensure compliance with
     Federal regulations and the DoD Financial Management Regulation.


Management Comment on the Finding and Audit Response
     Management Comment. The Director, Corporate Reporting Standards and
     Compliance nonconcurred with the identified material internal control weakness.
     He stated that the dollar discrepancies of these calculations are not material, since
     each debt input to the system is collected in total. In most cases, the amount of
     over- or under-collection based on the system calculation methodology is limited
     to a few dollars per collection, and each DFAS system correctly collects the entire
     amount of the debt. However, DFAS is looking into a work-around process to
     capture and collect up to 15 percent of all high-dollar entitlements and one-time
     payments that are earned after the initial salary offset collection is calculated and
     loaded into DJMS or DRAS.

     Audit Response. The Director, Corporate Reporting Standards and Compliance
     acknowledged that DJMS-Active Component and DJMS-Reserve Component had
     a systems issue in calculating disposable pay. DFAS improperly programmed
     DJMS-Active Component disposable pay by excluding some special pays,
     incentive pays, and other authorized deductions. DJMS-Reserve Component
     disposable pay was incorrectly programmed to include all available entitlements
     and deductions. As a result of improperly programming DJMS, DFAS
     improperly offset the earnings from active and reserve military members.


                                           6

    Additionally, DFAS was not in compliance with Public Law 105-264, “The
    Travel and Transportation Reform Act of 1998,” section 5514, title 5, United
    States Code, as well as the DoD Financial Management Regulation, because
    DFAS deducted offsets greater than 15 percent of disposable pay. During our
    review, we found numerous instances where DJMS-Active Component, DJMS-
    Reserve Component, and DRAS collected offsets greater than 15 percent of
    disposable pay, without authorization for a greater percentage. Due to the
    systemic nature of the DJMS and DRAS disposable pay calculation issue and the
    significant non-compliance with Federal regulations and the DoD Financial
    Management Regulation, we noted them as material internal control weaknesses
    for DFAS.


Recommendations, Management Comments, and Audit
Response
    Deleted and Renumbered Recommendations. As a result of management
    comments, we deleted Recommendation A.3.a. and renumbered Recommendation
    A.3.b. to Recommendation A.3.

    A. We recommend that the Director, Defense Finance and Accounting
    Service:

           1. Modify the Defense Joint Military System-Active Component and
    the Defense Joint Military System-Reserve Component to ensure that
    disposable pay complies with the DoD Financial Management Regulation
    7000.14-R, volume 7A, chapter 50, Section 500103.

    Management Comments. The Director, Corporate Reporting Standards and
    Compliance concurred with our recommendation and submitted a point paper
    requesting systems changes. However, the request was denied due to time and
    cost constraints. DFAS then submitted an issue paper to the Defense Integrated
    Military Human Resources System (DIMHRS) office identifying the DoD
    Financial Management Regulation 7000.14-R, volume 7A, chapter 50, section
    500103 requirement.

    Audit Response. Although the Director, Corporate Reporting Standards and
    Compliance concurred with our recommendation, his comments were partially
    responsive. The Director, Corporate Reporting Standards and Compliance
    recognized that DJMS used incorrect disposable pay to calculate salary offsets but
    did not provide a proposed date of when DIMHRS would become operational.
    Until DIMHRS becomes operational, DJMS will continue to incorrectly calculate
    disposable pay. Therefore, disposable pay is not in compliance with the DoD
    Financial Management Regulation 7000.14-R, volume 7A, chapter 50, section
    500103. We request that the Director, Corporate Reporting Standards and
    Compliance provide a proposed date of when DIMHRS will become operational
    and when DFAS will comply with the DoD Financial Management Regulation.




                                        7

       2. Modify the Defense Joint Military System-Active Component to
ensure that salary offsets are calculated using 15 percent of disposable pay.

Management Comments. The Director, Corporate Reporting Standards and
Compliance nonconcurred with our recommendation. He stated that each DFAS
system correctly collects the entire amount of the debt, although it might be at a
slightly different dollar amount than would be calculated each month. He also
provided that DoD Financial Management Regulation 7000.14-R, volume 7A,
chapter 50, section 500104.B.2. states, “Collections may be made in monthly
installments or at established pay intervals not to exceed 15 percent of disposable
pay for any pay period, unless a greater percentage is authorized by written
consent of the member.” The Director, Corporate Reporting Standards and
Compliance submitted a point paper requesting changes to DJMS to prevent
collections of greater than 15 percent of disposable pay. However, the request
was denied due to time and cost constraints. DFAS then submitted an Issue Paper
to the DIMHRS office identifying the DoD Financial Management Regulation
7000.14-R, volume 7A, chapter 50, section 500104 requirement.

Audit Response. The Director, Corporate Reporting Standards and Compliance
comments are partially responsive. We agree with the Director, Corporate
Reporting Standards and Compliance that the DoD Financial Management
Regulation 7000.14-R, volume 7A, chapter 50, section 500104.B.2. states that
collections may not exceed 15 percent of disposable pay, unless a greater
percentage is authorized. However, the Code of Federal Regulations, Title 31
Section 901.1(a) (2006) directs Federal agencies to aggressively collect all debts.
Collection activities should be undertaken promptly, with follow-up action taken
as necessary. Additionally, the Department of the Treasury, along with the DFAS
Salary Offset Office, transmits 15 percent of disposable pay to the DFAS pay
centers for collection of salary offsets. As a result, the Defense Civilian Payroll
System and the DJMS-Reserve Component collected offsets at 15 percent of
disposable pay. However, DJMS-Active Component did not use 15 percent of
disposable pay to calculate salary offsets. During our review, we found that the
DJMS-Active Component collected salary offsets ranging from 1 to 28 percent of
disposable pay, without authorization of a greater percentage. Instances may also
occur where DFAS does not aggressively offset a military member’s debt,
resulting in the Federal Government not fully recovering the overall debt. For
example, a debt would not be fully recovered when an employee separates from
DoD and their final payment is not sufficient to cover the remaining Federal debt.
By collecting debts at 15 percent, DFAS would ensure compliance with Federal
and DoD regulations and increase the likelihood of fully recovering Federal debts.
We request that the Director, Corporate Reporting Standards and Compliance
reconsider his position and provide additional comments on the final report.

        3. Modify the Defense Retiree and Annuitant Pay System to ensure
that all salary offsets are calculated using 15 percent of disposable pay.

Management Comments. The Director, Corporate Reporting Standards and
Compliance partially concurred with our recommendation. He stated that DRAS
is consistent and compliant with the DoD Financial Management Regulation
7000.14-R, volume 7B, chapter 28, section 280602, because it establishes the
initial salary offset deduction at an amount equal to or less than 15 percent of


                                     8

disposable pay through the life of the offset. However, the Director, Corporate
Reporting Standards and Compliance agrees that collecting amounts above 15
percent is noncompliant with the salary offset collection process. Therefore,
DFAS Retired and Annuitant Pay will require that appropriate system changes be
included in the DRAS Modernization initiative for the development of a new
system. The DRAS Modernization is going through early approval processes and
decision levels. A specific time frame for the development is not yet determined.

Audit Response. The Director, Corporate Reporting Standards and Compliance
comments were partially responsive. We recognize that the DoD Financial
Management Regulation 7000.14-R, volume 7B, chapter 28, section 280602
states that collections may not exceed 15 percent of disposable pay, unless a
greater percentage is authorized. However, the Code of Federal Regulations,
Title 31 Section 901.1(a) (2006) directs Federal agencies to aggressively collect
all debts. Collection activities should be undertaken promptly, with follow-up
action taken as necessary. Additionally, the Department of the Treasury, along
with the DFAS Salary Offset Office, transmits 15 percent of disposable pay to the
DFAS pay centers for collection of salary offsets. As a result, the Defense
Civilian Payroll System and the DJMS-Reserve Component collected offsets at
15 percent of disposable pay. However, DRAS did not use 15 percent of
disposable pay to calculate salary offsets. During our review, we found that
DRAS collected salary offsets ranging from 7 to 38 percent of disposable pay,
without authorization of a greater percentage. Instances may occur where DFAS
does not aggressively offset a retired military member’s debt, resulting in the
Federal Government not fully recovering the overall debt. For example, a debt
would not be fully recovered when a retired military member stops receiving
payment from DoD and their final payment is not sufficient to cover the
remaining Federal debt. By collecting debts at 15 percent, DFAS would ensure
compliance with Federal and DoD regulations and increase the likelihood of fully
recovering Federal debts. We request that the Director, Corporate Reporting
Standards and Compliance reconsider his position and provide additional
comments on the final report.

        4. Ensure that payment documentation is maintained in accordance
with DoD Financial Management Regulation 7000.14-R, volume 5, chapter
21, section 210101, “Disbursing Office Records,” March 2003.

Management Comments. The Director, Corporate Reporting Standards and
Compliance concurred with our recommendation and stated that DFAS provided
payment documentation requested by the auditors.

Audit Response. The Director, Corporate Reporting Standards and Compliance
comments were responsive. DFAS provided payment documentation for the five
Army reservists; however, the payment documentation was not adequate to
support the salary offsets deducted from the first quarter of FY 2006. On
August 24, 2007, a DFAS representative stated that DFAS was unable to retrieve
the necessary documentation for these five Army reservists. DFAS concurrence
with our recommendation to ensure that payment documentation is maintained in
accordance with the DoD Financial Management Regulation meets the intent of
this recommendation. Therefore, no further comments are required.



                                    9

Appendix A. Scope and Methodology 

   We conducted this performance audit from October 2006 through July 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   To review the DoD salary offset program, we evaluated the DFAS process of
   offsetting earnings for current DoD civilian employees and current and retired
   military members to pay debt obligations. During FY 2006, the Salary Offset
   Reporting System included a universe of 18,309 current DoD civilian employees
   and current and retired military members, with salary offsets amounting to a total
   of $9.8 million. We used a statistical sample of 300 social security numbers for
   current and retired DoD personnel to determine whether DFAS accurately offset
   earnings. See Appendix B for the statistical sampling plan. We reviewed salary
   offset and payment documentation for the statistical sample. Also, we contacted
   representatives from the Office of the Under Secretary of Defense
   (Comptroller)/Chief Financial Officer, the DFAS Salary Offset Office, the DFAS
   pay centers (Civilian, Military (Active and Reserve), and Retired and Annuitant),
   and Lockheed Martin. We limited our scope to total salary offsets greater than
   $100.

   To accomplish the audit objective:

      •	 We contacted the Office of the Under Secretary of Defense
         (Comptroller)/Chief Financial Officer to determine its involvement with
         the DoD Salary Offset Program.

      •	 We met with the DFAS Salary Offset Office to obtain a universe of
         transactions and gain an understanding of the salary offset process. We
         obtained and reviewed salary offset documents for the 300 DoD
         personnel.

      •	 In order to obtain FY 2006 payment documentation, we visited the DFAS
         centers located in Cleveland, OH; Denver, CO; Kansas City, MO; and
         Indianapolis, IN. We also visited Lockheed Martin at DFAS Cleveland.
         We used the payment documentation to recalculate disposable pay and to
         identify salary offsets withheld. We compared the salary offsets to
         amounts identified within the DFAS Salary Offset Office databases.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the DFAS Salary Offset Office and the DFAS pay systems,
   although we relied on data produced by those systems to conduct the audit. We
   determined data reliability by comparing the pay documentation to system
   information provided by the DFAS Salary Offset Office and recalculated
   disposable pay to determine accurate salary offset amounts. Although we did not
   evaluate additional controls, the results of our audit were not affected.


                                        10 

    Use of Technical Assistance. An Operations Research Analyst of the
    Quantitative Methods Division of the Department of Defense Office of the
    Inspector General assisted with the project sample selection. The Data Mining
    Division of the Department of Defense Office of the Inspector General
    coordinated with the Defense Manpower Data Center to ensure the validity of the
    social security numbers within our sample.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of one aspect of the DoD financial management high-risk area.


Prior Coverage
    No prior coverage has been conducted on the DoD salary offset process during
    the last 5 years.




                                       11 

Appendix B. Statistical Sample 

    Population. The DFAS Salary Offset Office provided us with 18,309 unique
    social security numbers during FY 2006. We excluded 2,162 social security
    numbers with total salary offsets less than $100. The remaining population
    consisted of 16,147 unique social security numbers.

    Sample Plan. We categorized each of the 16,147 social security numbers based
    on the collection amount and divided the population into four strata. The
    Quantitative Methods Division of the Department of Defense Office of the
    Inspector General selected records within each stratum using a simple random
    sample (without replacement), and determined the sample size for each stratum
    based on calculations, what-if analysis, and professional judgment. The
    Quantitative Methods Division drew the sample using the random sampling
    capabilities of SAS version 9.1. Table B-1 discusses the statistical sampling plan.

                          Table B-1. Statistical Sampling Plan

     Stratum                    Population                  Sample

     GTE 2500                       371                       50

     1000-2499                    2,264                     110

     500-999                      3,386                      60

     100-499                    10,126                       80

     Total                      16,147                      300




                                          12 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget
Department of the Treasury
Inspector General, Department of the Treasury




                                          13 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      14 

Defense Finance and Accounting Service
Comments


                          DEFENSE FINANCE AND ACCOUNTING SERVICE
                                                             EAST 5 6 T H STREET
                                                   INDIANAPOLIS, INDIANA




                                                                                                         AUG 0 9 2007

     DFAS-JJR/IN

     M E M O R A N D U M FOR DIRECTOR, DEFENSE FINANCIAL AUDITING SERVICE,
                               OFFICE OF THE INSPECTOR GENERAL, D o D

     S U B J E C T : C o m m e n t s to R e c o m m e n d a t i o n s in the D o D I G Draft Report/Project N o .
                     D2007-D000FC-0059.000



              A t t a c h e d are m a n a g e m e n t c o m m e n t s t o R e c o m m e n d a t i o n N u m b e r s A1 through
     A 4 a n d t h e Material Internal Control W e a k n e s s in the D o D I G Draft Report, " D o D Salary
     Offset P r o g r a m " , d a t e d July 1 2 , 2 0 0 7 .

           Q u e s t i o n s y o u r staff m a y h a v e concerning t h e s e matters m a y b e d i r e c t e d t o 

     Mr. R o n C o x at 3 1 7 - 5 1 0 - 2 4 6 7 . 





                                                               W i l l i a m E . Bergmeyer
                                                               Director, C o r p o r a t e Reporting
                                                                 Standards & C o m p l i a n c e


     Attachment:
     As stated




                                                           www.dfas.mil
                                                    Your Financial Partner @ W o r k




                                                                15
         D F A S c o m m e n t s on D o D I G draft r e p o r t , " D o D S a l a r y Offset P r o g r a m '
                                             dated J u l y 12, 2 0 0 7
                                 (Project N o . D 2 0 0 7 - D 0 0 0 K C - 0 0 5 9 . 0 0 0 )



A.	 W E R E C O M M E N D T H A T T H E D I R E C T O R , D E F E N S E F I N A N C E A N D
     ACCOUNTING SERVICE:

R E C O M M E N D A T I O N 1: M o d i f y t h e D e f e n s e J o i n t M i l i t a r y S y s t e m - A c t i v e
C o m p o n e n t a n d t h e D e f e n s e J o i n t M i l i t a r y S y s t e m - R e s e r v e C o m p o n e n t to e n s u r e
that disposable p a y complies with the D o D Financial M a n a g e m e n t Regulation
7 0 0 0 . 1 4 - R , v o l u m e 7 A , c h a p t e r 50, S e c t i o n 5 0 0 1 0 3 .

M a n a g e m e n t C o m m e n t s : C o n c u r in p r i n c i p l e . A point p a p e r w a s s u b m i t t e d t o t h e
D J M S C h a n g e C o n f i g u r a t i o n B o a r d ( C C B ) on April 30, 2 0 0 7 r e q u e s t i n g t h e c h a n g e . T h e
request w a s d e n i e d d u e to the c o s t a n d t i m e constraints for i m p l e m e n t a t i o n and t h e
i m p e n d i n g D I M H R S Initial O p e r a t i n g Capability. T h e O S D H u m a n R e s o u r c e s P o l i c y
F o r m Issue Paper, 2 0 0 7 - O P S - 0 1 w a s submitted to the D 1 M H R S Office on M a y 1 5 , 2 0 0 7
identifying t h e D O D F M R V o l u m e 7 A , C h a p t e r 50, Section 5 0 0 1 0 3 r e q u i r e m e n t .

C o m p l e t i o n D a t e : This r e c o m m e n d a t i o n is considered closed.



R E C O M M E N D A T I O N 2: Modify the Defense J o i n t Military System-Active
C o m p o n e n t t o e n s u r e t h a t s a l a r y offsets a r e c a l c u l a t e d u s i n g 15 p e r c e n t of
disposable pay.

M a n a g e m e n t C o m m e n t s : N o n c o n c u r . The D O D F M R V o l u m e 7 A , C h a p t e r 5 0 , Section
5 0 0 1 0 4 B 2 states, " C o l l e c t i o n s m a y b e m a d e in m o n t h l y installments or at established
p a y intervals not to e x c e e d 15 percent of disposable p a y for a n y p a y period, u n l e s s a
greater p e r c e n t a g e is authorized b y written c o n s e n t of the m e m b e r . " E a c h D F A S s y s t e m
correctly collects the entire a m o u n t of the debt, although it m i g h t b e at a slightly different
dollar a m o u n t than w o u l d b e calculated e a c h m o n t h . A p o i n t p a p e r was s u b m i t t e d to the
D J M S C h a n g e Configuration B o a r d ( C C B ) on April 3 0 , 2 0 0 7 r e q u e s t i n g the c h a n g e to
D J M S to p r e v e n t collection of greater 1han 1 5 % of the m e m b e r ' s d i s p o s a b l e p a y . It w a s
not a p p r o v e d due to the cost and t i m e constraints for i m p l e m e n t a t i o n and t h e i m p e n d i n g
D I M H R S Initial O p e r a t i n g Capability. T h e O S D H u m a n R e s o u r c e s Policy F o r m Issue
Paper, 2 0 0 7 - O P S - 0 1 w a s s u b m i t t e d to the D I M H R S Office on M a y 15, 2 0 0 7 identifying
the D O D F M R V o l u m e 7 A , C h a p t e r 50, Section 5 0 0 1 0 4 requirement.

C o m p l e t i o n D a t e : T h i s r e c o m m e n d a t i o n is considered closed.




                                                                  16 

                                                                                                                                 Final Report
                                                                                                                                  Reference




R E C O M M E N D A T I O N 3 : M o d i f y the D e f e n s e R e t i r e e and A n n u i t a n t P a y S y s t e m
to:

a.	 E n s u r e that d i s p o s a b l e p a y complies w i t h the D o D F i n a n c i a l M a n a g e m e n t
    R e g u l a t i o n 7 0 0 0 . 1 4 - R . v o l u m e 7 B , c h a p t e r 28, section 2 8 0 2 0 9 a n d
                                                                                                                                 Deleted
M a n a g e m e n t C o m m e n t s : N o n c o n c u r . T h e D e f e n s e Retired and Annuitant P a y S y s t e m            Pages 3, 4, 5
( D R A S ) c u r r e n t l y considers and reduces the gross p a y of a retired service m e m b e r b y the                     and 7
entitlements c i t e d in D O D F M R 7000.14-R, V o l u m e 7 B , C h a p t e r 2 8 , Section 2 8 0 2 0 9 , to
arrive at d i s p o s a b l e p a y w h e n applying a salary offset deduction.

C o m p l e t i o n D a t e : This r e c o m m e n d a t i o n is c o n s i d e r e d closed.

b.	 E n s u r e t h a t all salary offsets are calculated using 15 p e r c e n t o f d i s p o s a b l e p a y .

M a n a g e m e n t C o m m e n t s : Partially C o n c u r . T h e D R A S establishes the initial salary
offset d e d u c t i o n at a n a m o u n t equal t o or less than 15% of d i s p o s a b l e p a y t h r o u g h t h e life
of the offset. T h i s is consistent and c o m p l i a n t w i t h the D O D F M R 7000.14-R, V o l u m e
7B, C h a p t e r 2 8 , Section 2 8 0 6 0 2 , w h i c h states " C o l l e c t i o n m a y be m a d e in m o n t h l y
installments or at established p a y intervals not to e x c e e d 15 percent o f disposable p a y for
a n y p a y period, u n l e s s a greater p e r c e n t a g e is authorized b y written c o n s e n t o f the
member."

T h e D o D I G and R e t i r e d a n d A n n u i t y ( R & A ) P a y differ as to the interpretation o f the
collection p r o c e s s since t h e D o D I G interprets that each salary offset collection a m o u n t
should b e equal t o 1 5 % of disposable pay, and R & A P a y interprets the process t o allow
for collection at or less than 1 5 % of disposable pay. H o w e v e r , b o t h t h e D o D I G and R & A
P a y agree that collection a m o u n t s a b o v e 1 5 % of disposable p a y a r e n o n c o m p l i a n t w i t h
the salary offset collection p r o c e s s . Therefore, R & A P a y will r e q u i r e that appropriate
s y s t e m c h a n g e s b e included in the D R A S M o d e r n i z a t i o n initiative for the d e v e l o p m e n t o f
a n e w s y s t e m . T h e D R A S Modernization is g o i n g t h r o u g h early approval p r o c e s s e s a n d
d e c i s i o n levels. A specific t i m e f r a m e for t h e d e v e l o p m e n t is not yet d e t e r m i n e d .
H o w e v e r , these r e q u i r e m e n t s will h e included in that d e v e l o p m e n t effort. N o i m m e d i a t e
s y s t e m c h a n g e s will b e m a d e to the existing D R A S system.


C o m p l e t i o n D a t e : T h i s r e c o m m e n d a t i o n is c o n s i d e r e d closed.



R E C O M M E N D A T I O N 4 : E n s u r e that p a y m e n t d o c u m e n t a t i o n is m a i n t a i n e d in
a c c o r d a n c e w i t h D o D F i n a n c i a l M a n a g e m e n t R e g u l a t i o n 7 0 0 0 . 1 4 - R , v o l u m e 5,
c h a p t e r 2 1 , section 2 1 0 1 0 1 , " D i s b u r s i n g Office R e c o r d s , " M a r c h 2 0 0 3 .




                                                                   17 

M a n a g e m e n t C o m m e n t s : C o n c u r . D F A S h a s provided the p a y m e n t d o c u m e n t a t i o n
requested b y t h e auditors r e g a r d i n g t h e audited accounts.

Completion Date: T h i s r e c o m m e n d a t i o n is considered closed.

M a t e r i a ] Internal C o n t r o l W e a k n e s s e s : W e identified m a t e r i a l internal control
w e a k n e s s e s for D F A S as defined b y D o D Instruction 5 0 1 0 . 4 0 , " M a n a g e r s ' I n t e r n a l
C o n t r o l P r o g r a m P r o c e d u r e s , " J a n u a r y 4, 2 0 0 6 . Specifically, D F A S did n o t e n s u r e
that D J M S and D R A S p r o p e r l y offset t h e e a r n i n g s o f c u r r e n t and retired m i l i t a r y
m e m b e r s ' e a r n i n g s . I m p l e m e n t i n g the r e c o m m e n d a t i o n s in this r e p o r t will
s t r e n g t h e n the D o D salary offset p r o c e s s and p r e v e n t i m p r o p e r offset a m o u n t s .



R e s p o n s e to the M a t e r i a l W e a k n e s s : W e also do not concur w i t h t h e draft report that
t h e a u d i t identified "material internal control w e a k n e s s e s for D F A S " . T h i s s t a t e m e n t w a s
m a d e o n t h e basis of t h e s y s t e m s not c o m p u t i n g disposable p a y correctly a n d not taking
exactly 1 5 % collection. In m o s t cases, t h e a m o u n t of o v e r or u n d e r collection b a s e d on
the s y s t e m calculation m e t h o d o l o g y w o u l d b e limited to a few dollars per collection.
Each D F A S s y s t e m correctly collects t h e entire a m o u n t of the debt, a l t h o u g h it m i g h t b e
at a slightly different dollar a m o u n t than w o u l d b e calculated each m o n t h . D F A S is
looking into a w o r k a r o u n d p r o c e s s to capture a n d collect u p to 1 5 % of all large dollar
entitlements/one t i m e p a y m e n t s that arc earned after t h e initial salary offset collection is
calculated and l o a d e d into the D J M S o r D R A S system. W h i l e t h e D O D F M R states that
 collections m a y not e x c e e d 1 5 % , it also d o e s not state that the collection must be exactly
 1 5 % . W e b e l i e v e the dollar discrepancies of these calculations are not material,
especially in light o f the fact that each debt i n p u t to the s y s t e m s in collected in total.




                                                             18 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Kenneth B. VanHove
John C. Petrucci
Timothy J. Miller
Sean T. Sullivan
Randall D. Yoder
Nancy J. Kovalchick
Jennifer L. Bergey
Lusk F. Penn
E. Ellen Kleiman-Redden
